No.
In The

^vqpreme Olaurt of
SoK Bun,
Petitioner,
V.

United States of America,
Respondent.
CERTIFICATE OF SERVICE
I, Ishan K. Bhabha, hereby certify that I am a member of the Bar of this Court,
and that I have this 19th day of February 2020, caused three copies of the Petition for a
Writ of Certiorari to be served via overnight mail and an electronic version of the
document to be transmitted via the Court’s electronic filing system to:
Howard W. Anderson III
176 E Main St.
Pendleton, SC 29670
(864) 643-5790
howard@hwalawfirm.com
Counsel for Janies Peterson

Noel J. Francisco
Solicitor General
United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
(202) 514-2217
SupremeCtBriefs@USDOJ.gov
Counsel for United States, et al.

Ishan K. Bhabha

